                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A12090065                                                                       Page 1 of 1



                 Our office received an allegation that an institution1 required fellows to take a teaching
         assistantship (TA) and pay tuition and fees, thereby violating the policies of the NSF Graduate
         Research Fellowship Program (GRFP). 2 It was also alleged that the institution limited the
         amount of credits the fellows can take. We requested and received information and
         documentation from the institution. Our review of the matter determined that the institution
         acted within NSF and GRFP guidelines. Therefore, the allegations are unsubstantiated and this
         case is closed with no further action taken.




NSF OIG Form 2 (11/02)
